U.S. Department of Justice
Office of the Solicitor General
The Solicitor Genera!

Washington, D.C. 20530

December 12, 2019

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Paul Huskisson v. United States
S. Ct. No. 19-527

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
October 17, 2019. The government's response is now due, after one extension, on
December 23, 2019. We respectfully request, under Rule 30.4 of the Rules of this Court,
a further extension of time to and including January 22, 2019, within which to file the
government's response.
This extension is necessary because the attorneys with principal responsibility for
final preparation of the government's response have been heavily engaged with the press
of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

NOEL J. FRANCISCO
Solicitor General

cc:

See Attached Service List

19-0527
HUSKISSON, PAUL
USA

JASON M. WILCOX
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-879-5200
JASON .WILCOX@KIRKLAND .COM

